<html>
<title> - MAKING THE GRADE? EXAMINING DISTRICT OF COLUMBIA PUBLIC SCHOOLS REFORM PROPOSALS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
MAKING THE GRADE? EXAMINING DISTRICT OF COLUMBIA PUBLIC SCHOOLS REFORM 
                               PROPOSALS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2006

                               __________

                           Serial No. 109-146

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-852                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                 Larry Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 28, 2006...................................     1
Statement of:
    Johnson, Henry L., Assistant Secretary of Education for 
      Elementary and Secondary Education, U.S. Department of 
      Education, accompanied by Hudson La Force III, Senior 
      Counsel to the Secretary; Dr. Clifford Janey, 
      superintendent, District of Columbia Public Schools; John 
      Musso, chief financial officer, District of Columbia Public 
      Schools; Charles Willoughby, inspector general, District of 
      Columbia, accompanied by William DiVello, assistant 
      inspector general for audits, Office of the Inspector 
      General, District of Columbia; and Cedric Jennings, 
      District of Columbia Public School graduate................    11
    Janey, Clifford                                                  21
    Jennings, Cedric                                                 56
    Johnson, Henry L.                                                11
    Musso, John                                                      36
    Willoughby, Charles                                              43
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    78
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Janey, Dr. Clifford, superintendent, District of Columbia 
      Public Schools, prepared statement of......................    23
    Johnson, Henry L., Assistant Secretary of Education for 
      Elementary and Secondary Education, U.S. Department of 
      Education, prepared statement of...........................    14
    Musso, John, chief financial officer, District of Columbia 
      Public Schools, prepared statement of......................    38
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     9
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    82
    Willoughby, Charles, inspector general, District of Columbia, 
      prepared statement of......................................    45


MAKING THE GRADE? EXAMINING DISTRICT OF COLUMBIA PUBLIC SCHOOLS REFORM 
                               PROPOSALS

                              ----------                              


                         FRIDAY, APRIL 28, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis, Cummings, and Norton.
    Staff present: David Marin, staff director; Larry Halloran, 
deputy staff director; Keith Ausbrook, chief counsel; Rob 
White, communications director; Shalley Kim, professional staff 
member; Teresa Austin, chief clerk; Sarah D'Orsie, deputy 
clerk; Kim Trinca, minority counsel; Earley Green, minority 
chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order. 
Welcome to today's hearing on the District of Columbia's public 
school system.
    The District of Columbia Financial Responsibility 
Management Assistance Authority was put in place by Congress in 
April 1995 to turn around the city during a financial crisis.
    The control board conducted an extensive review of the 
District of Columbia Public Schools and concluded that the 
system was in disarray. ``The deplorable record of the 
district's public schools by every important educational and 
management measure, has left one of the city's most important 
public responsibilities in a state of crisis, creating an 
emergency which can no longer be ignored or excused,'' the 
Control Board said. ``DCPS is failing in its mission to educate 
the children of the District of Columbia in virtually every 
area and every grade level, the system has failed to provide 
our children with a quality education in a safe environment in 
which to learn.''
    Today, at a time when so many things are going right in the 
Nation's Capital, DCPS continues to be plagued by management 
problems, declining enrollment, crumbling facilities, 
escalating violence and substandard academic achievement.
    The fact is, the District's improved health cannot be 
sustained without a better public school system. Families are 
left with unenviable or unattainable choices, move out, try to 
switch to charter schools with mixed records themselves, win 
the lottery for a scholarship for the private school through 
the DC School Choice program, or succumb to the fact that their 
children are going to have to succeed in spite of, rather than 
due to, the educational climate.
    It is not impossible to succeed in D.C. public schools, but 
the journey is difficult. One of our witnesses today, Cedric 
Jennings, is here to talk about those obstacles and how he was 
able to overcome them.
    The number of D.C. schools identified as in need of 
improvement increased from 15 in 2003 to 71 in 2004, and 80 in 
2005. According to the Nation's report card, a report released 
in 2005 by the National Center for Educational Statistics, only 
10 percent of fourth graders and 7 percent of eighth graders 
are proficient in mathematics. And only 11 percent of fourth 
graders and 12 percent of eighth graders are proficient in 
reading.
    DCPS is currently at the lowest levels of State educational 
agency performance as measured by the National Assessment of 
Educational Progress.
    Superintendents have come and gone with different ideas 
about how to reform the system. Past experience demonstrates 
that change cannot happen in a relatively short period of time, 
and progress will not be easy.
    No plan can succeed without perseverance and stable 
leadership. Superintendent Clifford Janey gives D.C. a chance 
at stability. Dr. Janey has the burden to fix many problems 
that predate his arrival.
    Almost a year ago, Superintendent Janey testified before 
this committee and discussed a new strategic plan called the 
``Declaration of Education: Keeping Our Promise to the 
District's Children.''
    The initiatives aimed at raising academic achievement in 
every classroom and in every school.
    There are three goals that guide the declaration, 
academics, management systems and communication, including the 
plan as a framework to raise student achievement by retaining 
and training high quality teachers and principals, engaging 
parents and communities, improving business operations in 
school facilities, and implementing new curriculum standards.
    We are interested to hear today how these plans are 
working. But we hold this hearing against the backdrop of a 
decision of the U.S. Department of Education to declare D.C. 
schools a high risk grantee, once again highlighting the weak 
managerial and financial controls in the system. The high risk 
designation means that special conditions will be imposed on 
all existing grants issued by the Department to DCPS, and if 
corrective action is not taken, the loss of Federal dollars is 
a real possibility.
    I am interested to hear about how this designation came 
about, how this move can perhaps benefit D.C. students in the 
long run by forcing changes in the public school system and by 
bringing more widespread community resources to it.
    We also need to know what exactly is at stake and what is 
expected of DCPS. According to the Department, DCPS failed to 
meet accountability time lines and repeatedly submitted reports 
late.
    The Department also faulted DCPS's inability to monitor 
federally funded programs and services and highlighted 
systematic external control weaknesses.
    In addition, the district has to do a better job 
incorporating the provisions of No Child Left Behind into 
planning and implementation for systemwide change.
    Failure to make progress as defined by the law carries 
specific and serious consequences. If the Department determines 
that DCPS has not made substantial progress or met special 
conditions, then the Department can consider discontinuing all 
or part of one or more grants for the public school system or 
take other remedial action.
    This hearing gives us the opportunity to examine the 
current situation and discuss the resources needed to meet the 
standards set by Federal law.
    I also hope to re-examine how the district exercises State 
and local functions in the educational realm. No Child Left 
Behind requires State education agencies to exert authority 
over local school districts.
    Accountability, school improvement, teacher quality, and 
increased reporting requirements are four core features. There 
are four areas that the D.C. needs to significantly improve. 
The district must navigate a complex relationship between State 
and local educational functions. DCPS is both the State and 
local educational education agency, and therefore monitors its 
own Federal compliance. Previously, DCPS was the only local 
school district in the District of Columbia. However, there are 
no charter schools that serve a significant population of 
students.
    Under this arrangement, the DCPS superintendent also serves 
as the chief state educational officer responsible for carrying 
out State level functions, including oversight of DCPS 
operations. The responsibility is that in almost every other 
jurisdiction would be carried out by a separate State 
educational agency.
    While public charter schools are not under the auspices of 
DCPS, and are each considered an independent local education 
agency for State-level purposes, the school system performs 
State-level functions on their behalf.
    Faced with pressures to have State-level functions 
performed by an entity other than DCPS, the District created 
the Office of the State Education, allowing public school 
system to concentrate its resources on improving teaching and 
learning.
    Currently, the SEO exercises limited State functions, 
auditing annual enrollment, issuing rules for annual 
verification of D.C. residency, studying and making 
recommendations on the uniform per student funding formula, and 
State agency functions for the Department of Agriculture 
grants.
    I am eager to learn how reform efforts are proceeding and 
how students, teachers, administrators parents and elected 
officials can support the plan.
    As policymakers, educators and citizens, we have to 
determine our priorities and marshal the right resources. I 
know we are all hoping to give all D.C. students a chance at a 
brighter future. I would now recognize Ms. Norton for her 
opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T7852.001
    
    [GRAPHIC] [TIFF OMITTED] T7852.002
    
    [GRAPHIC] [TIFF OMITTED] T7852.003
    
    Ms. Norton. Thank you very much, Mr. Chairman. I appreciate 
your courtesies in agreeing to hold this hearing only after the 
superintendent had gotten his bearings and outlined his 
comprehensive reform plans for oversight by the Mayor, school 
board, D.C. Council, and the residents themselves.
    By the time Superintendent Clifford Janey became 
superintendent in 2004, the D.C. public schools had been 
without a superintendent for so long and had slipped into such 
steep decline, many feared that the Nation's Capital could not 
attract a competent superintendent equal to the considerable 
task.
    We are fortunate that Superintendent Janey took the job and 
that his efforts have quieted those fears. But Dr. Janey had to 
be a brave and confident man to come to the District with a 
determination he has shown to pick up the pieces of a shattered 
school system and take on the task of recreating the D.C. 
public school system.
    The D.C. schools, like the schools of every local 
jurisdiction, constitute the very essence of what is meant in 
the United States by local control and self-government.
    But the District, like other public schools, received some 
Federal funds, particularly title 1, IDEA, and some grant 
funds.
    This committee's approach has been consistent with the 
balance between home rule and legitimate congressional concern 
and interest in DCPS. I appreciate that balance, that balance 
along with the tough criticism the D.C. public schools have 
gotten and deserve from this committee.
    I wish I could say that the Department of Education had 
shown the same courtesies. We were shocked to learn a couple of 
months ago through a staff conference call that the Department 
officials had notified Superintendent Janey and relevant 
Members of Congress that day that DCPS would be placed in a 
``high risk category'' and that the Superintendent had been 
presented with a letter to be released at 4 p.m. that very day 
informing the press.
    The Department of Education was so anxious to hang the high 
risk label on the District schools endangering Federal funds 
that it rushed forward without any semblance or pretense of 
orderly or due process.
    When questioned, the Department could name no other school 
system in the continental United States that had received this 
designation, but when pressed, indicated that perhaps one or 
two territories had been so designated.
    Notably, no State or jurisdiction that had two Senators was 
named.
    This much seems sure. The Department of Education would 
have been reluctant to pull such a surprise attack on any of 
the big cities, all of whom have struggling school systems 
showing poor results, but all of whom have two Senators. It was 
a stunt that resembled a surprise attack by the cops with the 
press informed and the culprit put in the proverbial handcuffs 
and handicapped to adequately respond.
    The fairness issue was considerably compounded by the fact 
that the budget years that purportedly lead to the designation 
preceded this superintendent's tenure.
    Responding to protest, the Department pulled back but 
returned this week with a similar indictment following an 
investigation and communication with DCPS. I lay this incident 
on the record, not because I believe the designation was 
unfair, I had no information or basis to judge anything except 
the fairness of the process that was used.
    I do know the difference between a fair process and a sneak 
attack.
    The District may not have two Senators who have numerous 
ways to retaliate against such unfairness.
    But the Department is on notice that the District of 
Columbia will always insist that it is treated like any other 
U.S. jurisdiction whose taxes pay for our government, including 
the Department of Education and its personnel.
    At the same time, I have never been and will never be an 
apologist for the D.C. Government and especially not for its 
public schools.
    It breaks my heart that the public schools that were good 
enough to prepare me to compete with the best and the brightest 
and that the schools where my mother spent her professional 
teaching career would be the subject of continuing criticism.
    The strongest and most informed criticism has come not from 
the Department of Education or the Congress, but from the 
residents of the District of Columbia.
    Therein lies the good news.
    The most important issue in the city today is not crime or 
health care, or even housing, as pressing as these issues are. 
Ask anyone on the street in the District of any race or age or 
ward, ask any D.C. businessperson, and the answer will be the 
same. Education is and must be the paramount issue until the 
system recovers.
    There is every indication that local elected officials and 
the school board are all engaged with education as the city's 
most urgent issue.
    What then is the role of a congressional committee several 
steps removed from the day-to-day operations of a local school 
system and with no direct oversight or financial 
responsibility, our role is to listen, learn, and ask tough 
questions of all the witnesses before us.
    Our role is to convey unmistakably to all the witnesses our 
concerns and expectations.
    I welcome all of today's witnesses, and I thank them for 
the testimony they have prepared. I know that you can depend on 
the chairman and me and on my colleagues to perform the role 
assigned to us of fairly reviewing the D.C. public schools 
before us today.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T7852.004

[GRAPHIC] [TIFF OMITTED] T7852.005

    Chairman Tom Davis. Ms. Norton, thank you very much. 
Members will have 7 days to submit opening statements for the 
record.
    We would now recognize our very distinguished panel. We 
have the Honorable Henry L. Johnson, the Assistant Secretary of 
Education for Elementary and Secondary Education from the U.S. 
Department of Education, accompanied by Hudson la Force III, 
Senior Counsel to the Secretary.
    We have Dr. Clifford Janey, the superintendent of the 
District of Columbia Public Schools. Dr. Janey welcome back. 
Mr. John Musso, who is the chief financial officer of the 
District of Columbia Public Schools. Mr. Charles Willoughby, 
the inspector general of District of Columbia, accompanied by 
Mr. William DiVello, assistant inspector general for Audits, 
Office of the Inspector General, District of Columbia. And Mr. 
Cedric Jennings, District Columbia public school graduate.
    Thank you all for being here. It is our policy that we 
swear witnesses in before they testify so if you would just 
rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you. You can be seated.
    Secretary Johnson, we will start with you. Thank you.

    STATEMENTS OF HENRY L. JOHNSON, ASSISTANT SECRETARY OF 
    EDUCATION FOR ELEMENTARY AND SECONDARY EDUCATION, U.S. 
 DEPARTMENT OF EDUCATION, ACCOMPANIED BY HUDSON LA FORCE III, 
     SENIOR COUNSEL TO THE SECRETARY; DR. CLIFFORD JANEY, 
   SUPERINTENDENT, DISTRICT OF COLUMBIA PUBLIC SCHOOLS; JOHN 
  MUSSO, CHIEF FINANCIAL OFFICER, DISTRICT OF COLUMBIA PUBLIC 
  SCHOOLS; CHARLES WILLOUGHBY, INSPECTOR GENERAL, DISTRICT OF 
 COLUMBIA, ACCOMPANIED BY WILLIAM DIVELLO, ASSISTANT INSPECTOR 
 GENERAL FOR AUDITS, OFFICE OF THE INSPECTOR GENERAL, DISTRICT 
 OF COLUMBIA; AND CEDRIC JENNINGS, DISTRICT OF COLUMBIA PUBLIC 
                        SCHOOL GRADUATE

                   STATEMENT OF HENRY JOHNSON

    Mr. Johnson. Good morning. Thank you for the opportunity to 
address this serious issue. I am Henry Johnson, Assistant 
Secretary of the U.S. Office of Education, responsible for 
elementary and secondary education.
    I want to begin by saying how much I appreciate 
Superintendent Janey's willingness to take on the tough job of 
turning around D.C. public schools and his efforts to get the 
system moving in the right direction.
    I know of very outstanding school leaders who have passed 
on applying for this because they were afraid of how tough it 
is.
    The D.C. public schools face many challenges. And I believe 
that Superintendent Janey deserves full support of the 
Department of Education and will get it, and of the Congress to 
help meet these challenges.
    Federal education programs provided about $120 million in 
formula and discretionary grants to the District of Columbia in 
fiscal year 2005, or about 12 percent of the school system's $1 
billion annual budget. Moreover, Federal financial support to 
the D.C. schools has grown substantially in recent years with 
appropriations for No Child Left Behind programs rising by more 
than $39 million, or 82 percent between fiscal year 2001 and 
fiscal year 2005.
    Special education funding under IDEA jumped 74 percent or 
6.5 million over the same period of time.
    The 2007 budget proposed by the President also provides 
continued support for key D.C. education programs through a 
separate $76 million request in that appropriations bill. This 
includes 15 million for the opportunity scholarship program 
which helps give students from low income families in the 
District the same educational opportunities available to 
students from wealthier families, as well as the $26 million to 
support school improvement and expand the charter school effort 
in D.C.
    The President's request also provides $35 million for the 
D.C. resident tuition assistant grant program, which allows 
District residents to attend public colleges Nationwide at in-
State tuition rates.
    In addition to financial support, the Department has worked 
with the schools to improve student achievement, primarily 
through effective implementation of the No Child Left Behind 
Act. For example, we have provided technical assistance to help 
the schools comply with No Child Left Behind requirements 
regarding standards and assessments for all students in grades 
3 through 8 and in grade 10.
    This week, the DCPS is administering assessments under a 
new issued competent assessment system. And in May, we will 
conduct a peer review process to determine how well these align 
with No Child Left Behind requirements.
    We have also worked closely with the D.C. schools on the 
reading first program which is now in its second year of 
implementation at the classroom level in 26 schools, including 
four charter schools and three private schools.
    These schools have adopted scientifically based 
instructional programs and materials and use extensive 
professional development and technical assistance to improve 
reading instruction in grades K-3.
    The early results are promising, with a percentage of third 
grade student reading at the proficient level and participating 
schools rising from 38 percent to 52 percent after first year 
of implementation.
    Despite this combination of strong Federal financial 
support and recent progress in implementing key Federal 
education programs, the D.C. public schools has a very long way 
to go when it comes to what really matters, the academic 
achievement of approximately 75,000 students.
    This was the message of the 2005 Trial Urban District 
Assessment, conducted as part of the National Assessment of 
Educational Progress.
    In reading at both grades 4 and 8, the District finished 
last among the 11 large cities, including the assessment most 
disturbingly at fourth grade level for the two-thirds of 
district students scored at below basic reading, compared with 
an average of 51 percent for other large central cities and 38 
percent for the Nation at a whole.
    At the eighth grade level, scores improved somewhat but 55 
percent of district students continued to read at below basic 
compared to 40 percent average for large central cities and a 
national average of 29 percent.
    The Department has considerable insight into the 
longstanding problems of the D.C. schools.
    For several years, our audit reviews and program monitoring 
business have documented fundamental grant management internal 
control and procedural issues that make it very difficult to 
ensure for either accountability for proper expenditure of 
taxpayer funds or the appropriate delivery of services to 
students.
    Programs affected by these issues include title 1, the 
foundation of Federal support for elementary and secondary 
education, and programs authorized by the Individuals With 
Disabilities Act, which was placed at a high risk status and 
has been on that status for 5 years.
    One of the main issues--and I know my time is running out, 
so I am going to kind of summarize this--is that we see 
weaknesses in how D.C. Manages itself as a State education 
agency, as well as a local education agency.
    We think this contributes to the difficulty in monitoring 
and implementing the grants and ultimately students' success 
that is to be generated from these Federal dollars. We stand 
ready to help the D.C. public schools. I think Dr. Janey is a 
knowledgeable, articulate, sincere individual who will, over 
time, right this ship and show success in student learning 
outcomes but it will take all of our efforts, including, the 
high risk designation to get us where we need to go on behalf 
of the boys and girls in this school system. Thank you, sir.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T7852.006
    
    [GRAPHIC] [TIFF OMITTED] T7852.007
    
    [GRAPHIC] [TIFF OMITTED] T7852.008
    
    [GRAPHIC] [TIFF OMITTED] T7852.009
    
    [GRAPHIC] [TIFF OMITTED] T7852.010
    
    [GRAPHIC] [TIFF OMITTED] T7852.011
    
    [GRAPHIC] [TIFF OMITTED] T7852.012
    
    Chairman Tom Davis. Dr. Janey.

                  STATEMENT OF CLIFFORD JANEY

    Dr. Janey. Thank you very much, Chairman Davis, 
Congresswoman Norton, Members sitting to my right and to my 
left.
    I am Clifford Janey, Superintendent of Schools of the 
District of Columbia, and also serve as chief State school 
officer.
    What I would like to do is to highlight aspects of my 
testimony and not advance it word for word and paragraph for 
paragraph.
    And I would like to begin and make reference to page 3 in 
terms of one of the aims of this hearing is to have an update 
as to where we are now compared to where we were last year.
    And as such, I would just want to put this into the record.
    The number of schools meeting adequate yearly progress in 
both reading and mathematics has increased districtwide, going 
from only 63 schools in school year 2003, 2004 to 72 schools in 
last year, that is, 2004, 2005 school year.
    At the elementary level, we have seen a number of schools 
meeting these targets increase from 55 to 58 and at the 
secondary level from 8 to 14.
    In that same year of comparison, attendance increased from 
85 to 89 percent districtwide.
    Additionally, English language learners dramatically 
improved their proficiency in both reading and math rising from 
30.8 percent to 50.4 percent in reading, and from 50.8 percent 
to 56.4 percent in mathematics.
    Some other snapshots, and let's go to the national level, 
it was entered into the record about DCPS being one of 11 
districts on a trial basis in terms of its participation with 
the National Assessment Educational Progress Initiative.
    And we continue to fully participate in that effort.
    While we, along with Atlanta and Chicago and some other 
districts, represent the rear guard, there are points of 
progress I would like to mention and enter into the record.
    For example, the percentage of students scoring below basic 
decreased 9 percent, and this is in fourth grade mathematics, 
and the percent of students scoring proficient increased by 3 
percent. Both of those increases were statistically 
significant.
    I would also like to point out that, which is not in my 
testimony, there are some nuances that certainly can't be 
couched in any form of an excuse, but should be factored into 
the overall look at these points of progress for urban 
districts participating in the NAEP. And that is our exclusion 
rate for students in terms of participating in the NAEP of just 
1 percent, and for example, when you look at the school 
district of Houston, their exclusion rate for participation was 
14 percent.
    Again, it is a nuance that needs to be taken into 
consideration in the big picture.
    With respect to some of the other points of progress a 
number of students taking AP courses increased from 818 to 832, 
rather, and the number of students reporting 3, 4 or 5 on AP 
exams increased from 531 to 549 with a 17 percent increase 
among males alone.
    We see some slight increases in the SAT, and again, it is 
slight, but it gives you some sense of the angularity in terms 
of moving in the right direction. We moved from 412 to 414.
    But what was I think most I think accomplished in terms of 
the needle moving in the right direction was the number of 
students who took the PSAT, we increased it from 1 year to the 
next by 1,500 students. And there is a correlation between 
success on SAT and taking the PSAT.
    With respect to some of the operational business systems 
which was not captured by the Department of Education in their 
reports, we have automated our procurement system.
    We did that within a 6-month period of time, even though 
the plan that we had initiated was initiated was over a longer 
period of time, but the concentration of going fully automated 
took us just 6 months. And now departments, schools, divisions, 
can order whatever type of material, instructional, custodial, 
educational, they can do that electronically and receive their 
goods within a short period of time versus what used to be the 
past practice.
    I want to close and certainly welcome your questions and 
the conversation that we will have this morning but also, I 
want to enter on to the record the fact that we have 
established in an unprecedented manner the development and 
implementation of learning standards, which set the stage for 
all of our students and all of our schools to be seen whole and 
equal. We did such in record time.
    Less than 2 years, we adopted with the acknowledgement, 
support of the board of education, we adopted learning 
standards in three subject areas, reading language arts, 
mathematics and science, and most recently, this month before 
the board of education and the public is a recommendation from 
my office to adopt social study standards. And we are, as Henry 
Johnson pointed out so well, entering into an experience 
whereby our students, in all of our public schools, including 
charter schools, are taken, for the very first time, a new 
assessment which we developed and instituted in less than a 
year and a half.
    And with that, I would just like to close out in my 
testimony and move to the next witness.
    [The prepared statement of Dr. Janey follows:]

    [GRAPHIC] [TIFF OMITTED] T7852.013
    
    [GRAPHIC] [TIFF OMITTED] T7852.014
    
    [GRAPHIC] [TIFF OMITTED] T7852.015
    
    [GRAPHIC] [TIFF OMITTED] T7852.016
    
    [GRAPHIC] [TIFF OMITTED] T7852.017
    
    [GRAPHIC] [TIFF OMITTED] T7852.018
    
    [GRAPHIC] [TIFF OMITTED] T7852.019
    
    [GRAPHIC] [TIFF OMITTED] T7852.020
    
    [GRAPHIC] [TIFF OMITTED] T7852.021
    
    [GRAPHIC] [TIFF OMITTED] T7852.022
    
    [GRAPHIC] [TIFF OMITTED] T7852.023
    
    [GRAPHIC] [TIFF OMITTED] T7852.024
    
    [GRAPHIC] [TIFF OMITTED] T7852.025
    
    Chairman Tom Davis. Thank you, Dr. Janey.
    Mr. Musso.

                    STATEMENT OF JOHN MUSSO

    Mr. Musso. Good morning, Chairman Davis, Congresswoman 
Norton, members and guests my name is John Musso, and I am the 
chief financial officer for the District of Columbia public 
schools. I would like to thank you, first of all, for inviting 
us here today so that we could briefly summarize some of the 
financial operations and the success in our reform of the past 
24 months.
    We believe that Dr. Janey's educational reform objectives 
can be achieved through a framework of sound comprehensive 
system of internal controls. And those are some of the things I 
would like to talk about today, just exactly what have we done 
to strengthen those internal control mechanisms in the OCFO at 
DCPS.
    We have made substantial and tangible, as well as 
demonstrable progress in financial accounting operations.
    During fiscal year 2005, not only did we receive an 
unqualified or a clean opinion on our annual comprehensive 
financial statement, but we also effectively implemented past 
corrective actions that eliminated all fiscal material weakness 
and reportable conditions for the first time in many years.
    Over the past 24 months, we have made a concerted effort to 
strengthen all of our fiscal management accountability by 
enhancing the internal controls.
    Some of the following are examples of what we have done to 
strengthen those. First of all, we needed to investigate and 
evaluate the internal control mechanisms that were in place. We 
added to those, we strengthened those, and we changed some of 
them. We realize that it was essential that management monitor 
control related issues on an ongoing basis.
    We also realize that internal controls must be constantly 
evaluated and tested on a day-to-day operations to ensure that 
they are functioning properly.
    We achieved 98 percent compliance with the quick payment 
act. What this means is that 98 percent of our vendors are 
being paid within a 30-day period. That leaves 2 percent.
    The other 2 percent is made up of generally those 
requisitions that lack the requisite demonstrated documentation 
to justify the payment.
    Those types of things we are trying to enforce with our 
internal controls.
    We also successfully calculated and paid more than $22 
million in employee retroactive salary and step payments that 
date as far back as 1998.
    We successfully ended fiscal year 2005 with a balanced 
budget and the surplus of $12,000, the fiscal year 2004 budget 
with a balanced budget and a surplus of $1.2 million, and 
fiscal year 2003 ended with a balanced budget and a surplus of 
$37,000. We have collected more than $3 million in employee 
salary overpayments from prior years. And we have instituted at 
least 10 major policies to strengthen internal control 
mechanisms throughout the school system.
    Examples are travel policy, overtime policy, inventory and 
asset and control policy.
    I would also add that our external audit report contains 
only three audit findings for fiscal year 2005 down 75 percent 
from fiscal year 2003, none of which were in the area of fiscal 
management. We have maintained a very high level of fiscal 
transparency through the development of various budget reports 
and other fiscal information as well as posting the same on our 
newly created DCPS OCFO Web site.
    There are also several things we have done that have 
overarching effects on the total system. We have specifically 
dedicated several individuals in the accounts payable position 
just to special education payments. We have also been able to 
identify nonpublic tuition pressures far enough in advance that 
we are able to take care of those pressures within that fiscal 
year.
    And we have also been able to begin capturing the true cost 
of that nonpublic education through accurately tracking those 
expenses and payments.
    We know that systemic change and reform is not implemented 
over night. And we have been able to correct many things in the 
DCPS OCFO office. We also realize that others will come after 
us and in order to sustain that, we begin to memorialize those 
things and those practices that have led to these successes.
    I also believe that we will be able to sustain high level 
fiscal integrity by maintaining the due diligence and strong 
internal control mechanisms that we practice right now.
    With reform advances made in our office as chief financial 
officer and the aggressive reform efforts of Dr. Janey and his 
team, I am convinced that DCPS can overcome any issues and meet 
the needs and differences of every child every day. The DCPS 
OCFO stands ready to serve Dr. Janey and his team and the 
entire school system to lead them to a first class educational 
system.
    Mr. Chairman, once again, thank you for the opportunity to 
briefly describe some of the achievements for the OCFO, and I 
would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Musso follows:]

    [GRAPHIC] [TIFF OMITTED] T7852.026
    
    [GRAPHIC] [TIFF OMITTED] T7852.027
    
    [GRAPHIC] [TIFF OMITTED] T7852.028
    
    [GRAPHIC] [TIFF OMITTED] T7852.029
    
    [GRAPHIC] [TIFF OMITTED] T7852.030
    
    Chairman Tom Davis. Thank you very much.
    Mr. Willoughby, thank you for being with us.

                STATEMENT OF CHARLES WILLOUGHBY

    Mr. Willoughby. Good morning, Mr. Chairman, and members of 
the committee. My name is Charles Willoughby. I am the 
inspector general of the District of Columbia.
    I appreciate the opportunity to appear before you today to 
discuss issues that relate to the continuing efforts by the 
District of Columbia to improve its public school system.
    Many of these issues have become part of our audit agenda. 
My testimony today will outline past audits that address 
systemic deficiencies, summarize investigative matters and 
address our commitment to a high priority on auditing school 
operations that relate to financial and performance issues.
    As you are well aware, the D.C. public schools spend an 
excess of $1 billion annually and has one of the largest per 
capita student expenditure ratios in the Nation. Of the more 
than $1 billion spent on education programs, about 40 percent 
of school funds come from State education assistance and 
Federal grant programs.
    While audit efforts have successfully identified lapses and 
needed improvements in various programs, much remains to be 
done to improve the delivery of vital education services and to 
derive the greatest benefits from education resources.
    In the past several years, my office has increasingly 
devoted audit resources to address and emergent and 
longstanding issues facing the District's education system.
    These issues include special education, procurement and 
contract administration, payroll, security and grants 
management.
    For example, approximately 5 years ago, our office issued a 
detailed report on the costly scheduling methods used to 
transport the District's special education students. While we 
believe the current school administration is proactively 
focused on revolving the myriad of problems facing DCPS and is 
actively interested in our audit work, we believe that the 
problems noted still exist to this day.
    DCPS interests and our audit work was exemplified by the 
superintendent's participation in our annual audit planning 
conference. Most recently, my audit division is focused largely 
on school security issues.
    One of the more problematic issues facing schools across 
the Nation is the difficult task of ensuring what is perhaps 
most fundamental to the learning environment, student and 
faculty safety and security.
    Working with school officials, we have completed a series 
of audits during the past few fiscal years that address school 
security issues in areas such as the use of homeland security 
funds, procurement and background and training of security 
personnel.
    The school security problems noted in our audits were 
instrumental in part in the District developing a comprehensive 
plan for school security.
    The focus of the plan was to achieve involvement among the 
DCPS security division, school principals and the MPD school 
security division with respect to monitoring, controlling and 
improving security within the schools.
    The effectiveness of this new initiative as well as the 
appropriate role of the MPD in school security remains 
uncertain as the District continues to address the core issue 
of how best to provide school security services.
    Our past audits have identified systemic deficiencies in 
several areas that include procurement and payroll. Examples 
include awarding contracts without effective competition, 
relying on faulty sole source justifications for contracts, 
using an antiquated legacy payroll system that contributes to 
many payroll problems and using significant amounts of overtime 
in several labor categories where some individuals earn nearly 
as much as their annual salary in overtime.
    The District's Capital Improvement Program is of vital 
importance of maintaining a healthy infrastructure and learning 
environment throughout the school system. In addition, the 
anticipated investment of about $700 million in school 
renovations and new construction over the next few years 
mandates that we maintain our oversight efforts in this area.
    We recently issued an audit of the management of DCPS 
capital projects. The audit examined the DCPS capital 
construction program to assess the progress DCPS was making in 
assuming capital school construction projects.
    While DCPS's actions to take responsibility for managing 
the CIP, or the Capital Improvement Program, are promising, we 
do plan to develop audits in our fiscal year 2007 plan that 
will evaluate various aspects of the CIP.
    We continue our involvement in school security issues as 
well as other DCPS issues covered in our ongoing and planned 
audits. Some current DCPS ongoing and planned audits include 
special education for foster children, management of overtime 
pay in DCPS, tuition and residency requirements, followup 
audits on procurement practices of DCPS, management of truancy 
at DCPS and grant management practices.
    With respect to investigations, the OIG investigations 
division has conducted a broad range of criminal and 
administrative investigations involving DCPS officials, 
employees and contractors.
    OIG plans to help mitigate plans risks has four main 
components. First, creating a permanent audit site at DCPS, 
continuing efforts to followup on past audit recommendations; 
three, provide financial oversight through the comprehensive 
annual financial report; and four, maintaining effective 
working relationships and coordination with school officials 
and leadership.
    In conclusion, Mr. Chairman, I take very seriously my 
responsibility to use the resources of my office to continue to 
perform independent assessments of DCPS operations to 
ultimately resolve critical deficiencies.
    Thank you for the opportunity to respond to this most 
pressing and important issue. And I am happy to answer any 
questions that you may have.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Willoughby follows:]

    [GRAPHIC] [TIFF OMITTED] T7852.031
    
    [GRAPHIC] [TIFF OMITTED] T7852.032
    
    [GRAPHIC] [TIFF OMITTED] T7852.033
    
    [GRAPHIC] [TIFF OMITTED] T7852.034
    
    [GRAPHIC] [TIFF OMITTED] T7852.035
    
    [GRAPHIC] [TIFF OMITTED] T7852.036
    
    [GRAPHIC] [TIFF OMITTED] T7852.037
    
    [GRAPHIC] [TIFF OMITTED] T7852.038
    
    [GRAPHIC] [TIFF OMITTED] T7852.039
    
    [GRAPHIC] [TIFF OMITTED] T7852.040
    
    [GRAPHIC] [TIFF OMITTED] T7852.041
    
    Chairman Tom Davis. Mr. Jennings, thank you for being with 
us.

                  STATEMENT OF CEDRIC JENNINGS

    Mr. Jennings. Thank you, Chairman Davis, and all the 
committee members and fellow panelists and guests. Thank you so 
much for the opportunity to provide testimony of my experiences 
as a former student of the District of Columbia public schools 
system. Most people know me as the subject of the best selling 
book, ``A Hope In The Unseen,'' an American odyssey from the 
inner city to the Ivy League by Pulitzer Prize winning author 
Mr. Ron Susskind.
    Most people know me from ``A Hope In The Unseen,'' by Ron 
Susskind. And the book chronicles my experiences growing up in 
what is considered one of the most blighted sections of 
southeast Washington, DC, having been a student in the District 
of Columbia public schools and my college experiences as well.
    And briefly, I would like to just highlight some of my 
experiences as a student in D.C. public schools, as well as to 
highlight some key moments in my college experiences and 
institutions that worked together in moving me toward a path of 
success.
    As I travel in touring for ``A Hope In The Unseen,'' I am 
met by educators who always ask the question of, are there more 
Cedric Jenningses in schools? Can we create more Cedric 
Jenningses in our schools, high achieving students, students 
who are motivated, ready to excel. And each time I have gotten 
this question I pondered in my mind, what does it mean, are 
there more Cedric Jenningses. Or can we create more Cedric 
Jenningses?
    And I came to two realities. First reality is No. 1, I am 
not an anomaly. First off, my story is very common among many 
different people that I have encountered. They share with me 
how much they can connect with my story because they shared the 
same types of experiences having gone through a tough schooling 
experience.
    And then, second, the goal of schools, I realize, is not 
necessarily to replicate me, the person, but to replicate those 
institutions that actually worked in my favor as I journeyed 
through my schooling experience.
    Those institutions include the church, families, and 
schools. And not just those institutions, individually, but 
their interconnectedness in how they work. First off, in terms 
of family, my mother, you know, O, for the love of a mother. My 
mom's desire to motivate me to success came from her lack as a 
child. She constantly asked me, what are your dreams? And I 
would tell her my dreams and she would push me and say, baby, 
reach for the stars, you can do anything you put your mind to.
    But that question came from my mom from a deep place, 
because as a child she was not asked the same question.
    And so, moving forward, when she decided to give birth to 
me, at the reject of my father who basically told her he would 
sever ties with her if she did so, she had made up in her mind 
that she was going to be unselfish in moving me toward success 
by enforcing the power of education as well as the power of 
spirituality.
    And my mom, when she gave birth to me, basically, she was 
in a downward spiral of her life where she became involved in 
the Apostolic church. We have long been members of the 
scripture Cathedral where pastor Bishop Long and the church has 
essentially provided us with a sense of morals, a sense of 
order, a sense of dignity and a sense of pride in who we are in 
that we might have gone through difficult times, living in a 
tough community with mom struggling to make ends meet, but at 
the same time, the church helped us to understand that we could 
think beyond the circumstance and think toward the future.
    The church is important in terms of pastors being father 
figures. Bishop Long has always been a father figure to me. And 
he has helped guide me through the tough times I faced in the 
public school system of Washington, DC.
    My elementary schools experiences, I have fond memories of 
those as I remember there being a sense of community, a sense 
of love, a sense of intimacy, even between students, parents 
and faculty.
    And, I remember the students all sharing the same desire to 
be successful. And it was not a crime to have that sort of 
thinking.
    And when I graduated from Ketchum Elementary School, I felt 
that I could conquer the world and compete in any environment. 
I went on to Jefferson Middle school where, at that time, the 
principal was Ms. Vera White, and when we talk about solutions 
in terms of leadership, for those of us who know Vera White, 
she is--for me she was an example of exemplary leadership when 
it came to creating an environment where an ethos of success 
was created amongst the students in the student body as well as 
amongst teachers in the community.
    I went on to Ballou High School where I was faced with the 
reality of what a tough inner city school really meant in terms 
of the low expectations, the violence, the crime, even within 
schools. I have always been brought up to look at schools as 
sanctuaries. It is where you go and you partake in the process 
of learning.
    And as you partake in the process of learning, you are able 
to build upon dreams. And so I always saw school as just that 
thing. And it was discouraging to me at the onset when I first 
began at Ballou, to be in an environment where that same shared 
desire to be successful and to do well in the world wasn't as 
prevalent as it was in previous school settings.
    And it became very discouraging for me in that I was one of 
the few honor students at Ballou who expressed great pride in 
success and in doing well. And I experienced such criticism 
from classmates because it was not cool to be proud of success. 
The idea was keep your head down. Don't speak of your success.
    And I was one who had lofty ambitions and dreams. And I 
wasn't willing to allow anybody to shut me down because you 
know they didn't share the same level of motivation.
    And I was accused of trying to be white, thinking that I 
was better, I have been called nerd, egghead, you name it, but 
the bottom line was, I went to school daily with a dream, with 
a purpose to excel.
    And I had planned on go to an Ivy league institution. And 
one of the teachers at Ballou I will never forget when I told 
him of this dream, he told me, I don't think you can make it to 
the Ivy league, we haven't had a student go on to the Ivy 
league in 10 years.
    And so each obstacle I faced as such, I basically looked at 
it as an opportunity to become more motivated, to reach toward 
my goals. I graduated from Ballou in 1995, second in my class. 
I went on to attend Brown University. I graduated in 1999 with 
a degree in educational studies.
    I went on to the Harvard graduate school of education where 
I received my master of education in human development and 
psychology. And then I went on to University of Michigan in Ann 
Arbor, to where I earned my master of social work. Currently, I 
am a social worker for the D.C. Child and Family Services 
Agency. And I am thankful for the opportunity to be here and to 
answer any questions in more detail of the experiences I have 
had.
    Chairman Tom Davis. Cedric, thank you very much for that. 
And he came home. You have just given back and thank you for 
sharing that with us today.
    I have a number of questions we are going to go through, I 
am going to do 15 minutes, try to get my questions in, and Ms. 
Norton will take a few minutes longer and then we will let you 
get on your way.
    But this is an important question.
    Ever since I was named chairman of the subcommittee back in 
1995, and Ms. Norton has been my comrade in arms in this thing, 
a lot of changes have gone on in the city. And as I said in my 
opening statement, great things are happening.
    And the school system has been the toughest nut to crack. 
We have had a lot of good people trying to tackle this issue. 
Dr. Janey, I can't tell you how much respect we have for you 
that you took this on because they went out all over the 
country to look for people, and they came in and took a look at 
the situation and walked away from it.
    And this is tough. And nobody is sitting here blaming you 
for what has been years in the making.
    You are up there trying. We want to make sure at the end of 
this that between Congress, between the Department of 
Education, your tools, that we give you the tools that you need 
to succeed. As you know, we have given the city tools that we 
have given no other city in the country with vouchers the 
charter schools, and some other things. And I know you are 
looking outside the box in a lot of other areas.
    It is a tough, tough job.
    But this city is truly not going to come back until we get 
an educational system and we produce more Cedric Jenningses.
    The good news is the number of kids from the D.C. public 
schools that are going on to college has increased markedly, 
part of that is, I think, we have made college affordable, Ms. 
Norton with our proposals.
    But it is a very tough job, as you know, to getting kids 
motivated, getting them through Ballou with high dreams and 
ambitions and making them realize that. And it is good to have 
you here. It is a good role model for other kids knowing it can 
be done. But sometimes they are fighting the system. The system 
is not pushing them through it.
    Out in my district in Fairfax County, it is pushing them 
through. It is cool if you are not studying in some places. And 
we have to change that. It is slowly, slowly changing.
    First question I want to ask you, Secretary Johnson, Ms. 
Norton in her opening comment talked about why you had singled 
out territories and you had not gone after people with 
Senators, is that because you deal with the District 
differently because it is not a State and you have a, 
overseeing it in other areas, it would be handled differently 
through State government? How come the city is singled out 
here?
    We know there are failing systems in cities throughout the 
country as bad or worse.
    Mr. Johnson. The primary form of contact for the Federal 
Government regarding education is through the State. D.C. has a 
unique role of being both a State education agency and a local 
education agency.
    In those cases where recipients of Federal funds, D.C., and 
some of those territories, have not demonstrated the ability to 
manage the grants as well as they should be managed, the 
Department takes appropriate steps.
    Chairman Tom Davis. So what would you do with a State that 
doesn't do it correctly, same thing?
    Mr. Johnson. Absolutely.
    Chairman Tom Davis. But you haven't had that same problem 
with the States that you have with the city?
    Mr. Johnson. Not so far.
    Chairman Tom Davis. OK.
    Mr. Johnson. Working with the State of Louisiana, for 
example, though, which has decided to place Orleans Parish in 
its own categorization of high risk, we are assisting them. But 
we don't make a direct entree to entities other than those that 
receive Federal funds directly.
    Chairman Tom Davis. Is it fair to say, I mean, I know that 
the per people expenditure in the city is far greater than it 
is, for example, out in my district in Prince William and 
Fairfax County, VA. It is a different model altogether. But the 
problems I gather in the city are not just financial related, 
is that correct?
    Mr. Johnson. That's correct.
    Chairman Tom Davis. Could you elaborate on that a little 
bit? Because I think we need to understand that money at this 
point, just putting money into a system that is not prepared to 
spend it correctly, account for it correctly, has its own 
problems. And we are talking about a systematic change, not 
just financial. Is that fair?
    Mr. Johnson. That's correct. The bottom line on any Federal 
entree is to improve teaching and learning.
    And the grants, whether they are discretionary or formula, 
are based on trying to get an improvement in student learning 
outcomes.
    While there has been some improvement in D.C., compared to 
some of the other similar districts around the State, the 
numbers don't look as good. And we want to help rectify that 
situation.
    Chairman Tom Davis. What are you prepared to do to help the 
city?
    Mr. Johnson. Well, we are doing prepared things or prepared 
to do several things. I mentioned the money piece and I won't 
repeat those. But we are----
    Chairman Tom Davis. It is OK, Dr. Janey is writing it down.
    Mr. Johnson. Well, again the Department of Ed has already 
provided $1.9 million to support the elementary secondary ed. 
In addition, the additional $40 million for school improvement, 
and the finances financing for the opportunity scholarship 
program, we want to provide significant technical assistance 
and services.
    In helping to develop strategic corrective action plans 
planning, we will customize the training for grantee leadership 
and staff to make sure that the fiscal management in internal 
controls for grant management is appropriate.
    We will bring together resources from other agencies and 
third party vendors. We will provide expert technical 
assistance and program advice for developing State plans. And 
we have already worked with them in----
    Chairman Tom Davis. Dr. Janey are those things likely to 
help you, do you think they will help you significantly?
    Dr. Janey. They can be helpful if it is focused, it is 
consistent, and it has in its efforts the ability for 
measurable outcomes.
    Chairman Tom Davis. Would you move that mic closer?
    Dr. Janey. I said it could be helpful if the effort is 
focused, it is consistent, and it is truly collaborative.
    Chairman Tom Davis. What else would you ask the Federal 
Government? What is the most important things the Federal 
Government can do for you right now in addition to those 
things? If you were to sit here and have a conversation, I am 
asking you.
    Dr. Janey. A couple of things. One, in cases where we need 
to be out of the way, be out of the way. On the other side of 
the ledger though, they could provide us with examples of 
demonstrated best practices in other States and how, while they 
may not have been in a high-risk designation, but all States 
have some issues. So let's be clear about that. But more 
importantly, how they work with other States, having identified 
issues, whether they be in financial management, oversight of 
grants to LEA's within their respective jurisdictions, how they 
overcame becoming a high-risk designation as a State. So what 
was done on a preventative basis so that you didn't move to 
that next status? And what are you doing on an ongoing basis? 
And how do you measure success on that side?
    Chairman Tom Davis. Secretary Johnson, can we do those 
kinds of things as well?
    Mr. Johnson. Absolutely.
    Chairman Tom Davis. Is there anything else you would like 
to get from the Federal Government that would help you fulfill 
some of your plans for the system?
    Dr. Janey. Yes.
    Chairman Tom Davis. I have them under oath here.
    Dr. Janey. Some plain talk, Congressman, some plain talk 
about where we are in comparison to other States in assuming 
and following through on our responsibility to develop learning 
standards and the appropriate assessments. I have felt that we 
have not been given the kind of recognition and acknowledgment 
for the work that we are doing in that area.
    Chairman Tom Davis. Let me ask a question, comparing you to 
a State in many ways isn't a fair comparison, and I do not want 
to tread on that, but you do not have the very tax base. This 
city, the wealthiest areas, most of the kids, they do not go to 
the public schools; they go to a private school. So when you 
take a look at the makeup of the public school system and the 
income levels, the number of people that are going home to 
educated parents, those kind of issues, this city is far 
different than any State, isn't it? In terms of demographics, 
not different from other cities but different from other 
States. Is that a fair comment?
    Mr. Johnson. Yes.
    Chairman Tom Davis. When you compare the city to States, 
that gives it a tougher road to begin with. I think Mr. 
Jennings talks about how he worked his way through that, but 
without a strong base at home or belief, Cedric, it would have 
been very difficult would it not, because you do not pick that 
up systemwide and know a lot of the kids you go to school with, 
they are going home and they are not getting that kind of 
reenforcement; is that fair?
    Mr. Jennings. I would have to agree with that. I think a 
part of it is, it is important that schools become better at 
engaging parents and making them a part of the process. And I 
guess the start with that is through accountability of parents. 
I mean, it is easier said than done, but for the most part, it 
was interesting to go to parent-teacher conferences with my 
mom, and there is a school of 1,300 kids and only about 30 
parents show up for the PTA meeting. And usually those were the 
parents that didn't need to come because their kids were 
already getting A's. So that to me is an example of the need to 
come up with more creative ways in terms of engaging parents, 
engaging them to become more active in their children's 
education, making them feel relevant in doing that.
    Chairman Tom Davis. One of the problems of No Child Left 
Behind is, generally, if a school does not fulfill its goals, 
you give parents the option to send their kids other places. 
And our experience has been at Fairfax that it is the parents 
who are on top of things with the brightest kids that pull 
their kids out of the school which makes it even harder for 
that school to succeed because you have taken some of the core 
kids out. But I think that is a good insight on that.
    I think our auditors and the financial systems and all 
those kinds of things are issues that we cannot solve from 
here. Dr. Janey, this will take a lot of time. It may mean you 
have to move some people around, bring some more people in, 
whatever you have to do to do those kind of things. You have to 
get that. You have to start with a good system and good 
accountability, but once you get that, we still have a tough 
problem. I just heard the Department of Education say they are 
here to work with you on some of the best practices that we 
have learned through time. We also cannot expect this to work 
in a year. This is going to take some time.
    One of the concerns I think Ms. Norton and I both have is, 
when this city gets singled out and the way that we all learn 
about it is that somehow it is going to be a black eye for 
people who are trying and helping to improve this system every 
year. And I do not want everyone to leave with that impression 
that Dr. Janey isn't doing his job. And this is a long-term 
process. And this should be, by putting them on the list, this 
should be a helpful opportunity. This is just saying you need 
help. He knows he needs help. Let's work through this thing and 
work it. This city is a great city. And it can become a greater 
city but the toughest part has traditionally been the education 
system. And you have a tough group of kids to learn.
    My mom and dad both went to college. My father was a Ph.D., 
even though my mother basically brought us up, five kids. My 
father ended up spending a couple tours in the State prison 
system. I had an educated mother, and she made it very clear to 
us that education was the key to success. Most of these kids do 
not have that. We tried here with our D.C. College Access Act 
and some other things to let people know that it can be 
affordable, but the best of these things is done with some of 
these subtle things and best practices, like you say, by 
bringing good people in.
    I had a young lady who volunteered in my first campaign in 
1974. She just graduated from high school. She went to Yale, 
graduated from there and came back to teach in the D.C. public 
school system. She would have spent her life there if she 
thought she was making a difference, but it just got very 
discouraging. So she went out and became a lawyer. She wanted 
it to work, but it was a system that was not ready to take some 
of these wide-eyed, bushy-tailed, eager, talented people and 
make it work. So that is our challenge as we move through this.
    Oversight and supervision are two important issues when 
dealing with government. Is there proper supervision of the 
D.C. school system? What more needs to be done that may not 
require funding? Can you think of anything else, Mr. Johnson?
    Mr. Johnson. Mr. Chairman, let me, if I may, make a couple 
of comments about your last statement just briefly and then I 
will ask Mr. La Force who is senior counsel to the Secretary 
who is responsible for risk management efforts in the 
Department to comment as he sees fit.
    I came to the Department in August and very shortly 
thereafter was involved in a meeting regarding D.C., and as we 
worked through internally our conversations and also 
conversations with representatives from the District, it became 
clear to us that Superintendent Janey is a very competent 
superintendent. In considering to take this move to designate 
D.C. as a high-risk district, we wanted to make absolutely 
clear that this is not about Superintendent Janey. This is not 
about him at all. We think highly of his ability, and we think 
that this actually will help him do the things that are 
necessary to get D.C. where it needs to be.
    Chairman Tom Davis. Dr. Janey, D.C. public school systems 
have an extremely complex task of serving as the State 
education agency, providing oversight and guidance to all 
schools as well as a local education agency acting as an 
education body within the District. Can you tell us some of the 
safeguards that you put in place in order to ensure that there 
is a comfortable and efficient distinction between the 
oversight functions and the local education functions? Do you 
understand what I am saying? How do your staffing patterns 
reflect this? There are really two different skill sets.
    Dr. Janey. Precisely. There are two different sets of 
skills, and distinguishing between the two roles is a very 
important aspect of how we build our budget. For example, in 
the budget process for fiscal year 2007, we made a very 
deliberate attempt to distinguish what would be State dedicated 
dollars and local dedicated dollars, and the individuals 
responsible for crafting recommendations for both budgets were 
doing so in ways that represented their very distinct roles. It 
was not a blur. So we have done that. We have put together a 
State advisory committee overseeing the receipt and execution 
and monitoring of our Federal grants.
    I am contemplating developing a new position within the 
State organization that would be a deputy for me at the State 
level. And this person would be dedicated to State functions 
100 percent of the time. So it would be a deputy to the chief 
State school officer role that I have, knowing that I have both 
responsibilities, but this person would have 100 percent 
responsibility as a deputy chief to me.
    Chairman Tom Davis. Did I cut you off the last time? Do you 
want to say anything else?
    Mr. La Force. It is OK, Mr. Chairman.
    Chairman Tom Davis. Dr. Janey, in the declaration of 
education, you included plans to implement a diverse provider 
model as a means of turning around achievement in the 
District's lowest performing schools. The public school system 
would be able to enter a collaborative partnership with an 
array of outside educational providers such as universities, 
private companies and established community-based institution 
which would manage or provide comprehensive achievement support 
to these schools. How do you feel about that? Have you taken 
any steps to implement that?
    Dr. Janey. Yes, Georgetown University has stepped up, 
adopted one of our middle schools, and they will be moving to 
see how that plays out from pre-K through 12 as the plan 
unfolds. George Washington has been a very good partner with 
us. As you have been reading articles in one of the papers here 
in Washington, there is an intent to explore a relationship 
with Kipp academy, so we have a pre-K through 8 model. We have, 
on the business side of the house, we have been retaining the 
support and service of various outside providers in helping us 
maintain and grow our capacity for oversight of construction 
projects. We most recently had the responsibility of 
modernizing Brightwood Elementary School. It is our first 
oversight responsibility for modernization, and we are pleased 
to say we came in at $181 per square foot, and the average for 
the Army Corps of Engineers during their tenure here was about 
$286 per square foot. So there is some demonstration about our 
capacity to manage and to do it efficiently.
    Chairman Tom Davis. You still have, though, overall, very 
aging school public facilities; is that correct?
    Dr. Janey. Big time.
    Chairman Tom Davis. I understand there is still a 
significant number of noncredentialed teachers in D.C. public 
schools. Do you have any idea what percentage of teachers are 
in this category? And do you have any plans to audit the 
teacher rolls to identify noncredentialed teachers, requiring 
them to get their credentials? And the last question I want to 
ask is, are you having trouble attracting good new teachers 
into this system? I know the teacher pool 20 years ago in 
Fairfax and I think around the country is, there was a long 
waiting list of people to do that. Now I know it has tightened 
up in the suburbs, and I assume it has gotten tight here to 
attract good people.
    Dr. Janey. Interestingly enough, Congressman, we have not 
had any real difficulty attracting quality teachers. It is more 
about attracting quality teachers in particular subject areas, 
special education, mathematics and science. And as a State and 
a school district, we are not alone. That is common to Fairfax. 
That is common to some of our other partner regional districts 
within the overall area. But on the subject of certification, 
it is something that we take very seriously. We do not presume, 
however, that certification automatically correlates with 
quality. We do, however, make the presumption that you have to 
have that in order for you to be serving our children. But 
certification broken down has to be understood both with 
respect to competency in your subject area and certainly 
competency and a heartfelt kind of welcoming way by which you 
are going to teach our students. If you are a person 
responsible for teaching students in the area of mathematics, 
not teaching mathematics, some teachers quickly say, I teach 
math, I teach science, I teach a subject. No, you are teaching 
students about the world of mathematics, and your approach to 
such has to understand that the nurturing environment and the 
culture of your classroom is important.
    So we have about 600 to 700 teachers who are not highly 
qualified, and we have been monitoring this throughout the 
school year. And we have entered a major and robust recruitment 
effort and have partnered with a group, an outside group, to 
assist us in that recruitment effort. So we are partnering with 
people whether it is in construction, whether it is with higher 
education with private companies. We are also doing that in the 
area of human resources.
    Chairman Tom Davis. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Dr. Janey.
    It is curious, Mr. Johnson, you are saying this is not 
about Dr. Janey. Of course it is not about Dr. Janey, except it 
has occurred on Dr. Janey's watch. Are you aware, sir, that the 
District of Columbia, each and every part of the District of 
Columbia was under a control board because of the classrooms of 
the District government? If I might ask if you are so anxious 
to declare high-risk, how in the world did the Department of 
Education miss that one?
    Mr. Johnson. I am not familiar with what you are talking 
about, but my presumption is those other things are outside the 
responsibilities of the Department of Ed. This focus is only on 
the educational aspect of the District of Columbia.
    Ms. Norton. Mr. Johnson, that was a rhetorical question. 
But let me say that the question involved matters decidedly 
within the Department of Education because the D.C. government 
collapsed. As a result of that collapse, the schools and most 
especially the schools and every other part of the government 
was in the hands of a control board. Even then, the District of 
Columbia Public Schools were not declared at-risk. So I am 
trying to find out what at-risk means.
    First of all, are you aware, since this is not about Dr. 
Janey, that this is his first full year on the job?
    Dr. Janey. Second.
    Ms. Norton. Well, when you came in the last school year in 
the fall, schools had already begun and the matters were 
already on their way. And so I repeat my question, are you 
aware that this is his first full year on the job where he had 
an opportunity during the prior year to have an effect upon 
this year? Are you aware of that?
    Mr. Johnson. Yes, we are aware of that.
    Ms. Norton. Yet this is not about Dr. Janey. Again, as you 
say, I take no brief for these schools or any part of the 
government that fails. But you have to make me understand high-
risk category. Before I came to Congress, I was a tenured 
professor of law, and law students have to take care of 
themselves. They do not have a lot of warning. They have exams 
at the end of the year. Plop. That is it. However, one wonders 
about--indeed, my question is, what are the designations since 
high-risk is the most serious designation a school system can 
get? I must ask you what is the designation before high-risk 
and whether or not D.C. was given that designation so it could 
have some warning that you are going to be put in high-risk if 
in fact you do not correct the following items?
    Mr. La Force. Ms. Norton, there is no designation that 
precedes high-risk in our regulations. The high-risk 
designation is based on five criteria that are part of our 
Department's regulations, three of which we think apply in this 
case. The first is that the grantee has a history of 
unsatisfactory performance that goes both to financial 
performance and performance in the grantees Federal programs. 
The second is that the grantee has a management system which 
does not meet the management standards set forth in our 
regulations, and finally, that the grantee has not conformed to 
the terms and conditions of our grant. Those are technical 
requirements.
    But I would also like to review for the committee, if I 
may, the timeline under which we have been working as we made 
this decision. The Department has a dedicated group of 
employees that we refer to as the risk management team. This is 
the group of employees that is charged with working with any of 
our grantees, State level grantees, that would be identified as 
high-risk. In August of last year, in August 2005----
    Ms. Norton. Stop. That would be, that are already defined 
as high-risk.
    Mr. La Force. That are already or may be.
    Ms. Norton. Did those members of the Department notify and 
work with the D.C. public schools, and specifically what did 
that work consist of?
    Mr. La Force. In August 2005, we had an initial meeting 
with Dr. Janey and other members of his staff to begin 
introducing what we would refer to as a collaborative 
partnership-based working relationship in an effort to address 
our concerns with the District. This is a practice that we have 
engaged in with other States in the country, and it is an 
effort on our part to voice the high-risk designation.
    Ms. Norton. Was Dr. Janey informed that a high-risk 
designation would follow unless certain matters were in fact 
corrected, and was he informed what those matters were that had 
to be corrected?
    Mr. La Force. Yes, ma'am.
    Ms. Norton. Was he informed that a high-risk designation 
would in fact follow if those particular matters were not 
corrected?
    Mr. La Force. Yes, ma'am.
    Ms. Norton. Dr. Janey, do you recall a meeting where you 
were informed that you were in danger of a high-risk 
designation?
    Dr. Janey. Yes, I do, and the date for that meeting was 
February 15, 2006.
    Mr. La Force. On October 27th, a member of our risk 
management team informed a member of Dr. Janey's staff we were 
interested in continuing the discussions that we had in August, 
and I am reading----
    Ms. Norton. Informed his staff of what?
    Mr. La Force. I'm sorry.
    Ms. Norton. Informed his staff of what? You have stopped. 
You fill in the blank. You informed a member in October, you 
informed a member of Dr. Janey's staff, and who was that, and 
of what?
    Mr. La Force. We sent by e-mail to Dr. Bob Rice an 
invitation to continue the discussions that we had started in 
August.
    Ms. Norton. That is not informing him of anything.
    Mr. La Force. May I quote from the e-mail, Ms. Norton.
    Ms. Norton. That is what I would like you to do.
    Mr. La Force. ``As I think you know, the U.S. Department of 
Education intends this cooperative effort between our agencies 
to prevent the assignment of DCPS to high-risk status, as well 
as an effort by the U.S. Department of Education to help DCPS 
achieve its academic goals for its students.''
    On November 18th, another member of the risk management 
team wrote a letter addressed to Dr. Janey, in part, ``If we do 
not receive an appropriate response to the audit findings, we 
will have to consider the recovery of funds and other steps, 
including designating DCPS as a high-risk grantee and attach 
further special----
    Ms. Norton. Audit finding for what year?
    Mr. La Force. These were audit findings related to fiscal 
years 2002, 2003, which at the time were the subject of ongoing 
discussions with the District in an effort to correct the audit 
findings from these years which had not been corrected.
    Ms. Norton. So those of course were years prior to Dr. 
Janey's years.
    Mr. La Force. Yes, ma'am.
    Ms. Norton. Mr. Musso, were you aware of this request about 
years prior to the superintendent coming here and the request 
of the Department for correcting those audit findings?
    Mr. Musso. We received a copy of the request. We formulated 
our response and forwarded our responses on.
    Ms. Norton. And your response--that response was directed 
to you? That response came from you, excuse me.
    Mr. Musso. Right. The response relative to the OCFO issues 
and how we would correct those.
    Ms. Norton. You received that response or not?
    Mr. La Force. We received that response on February 10th of 
this year, approximately 3 months after the due date.
    Ms. Norton. Oh my. You found that response so inadequate 
that you believed you had to move to declare D.C. in high-risk 
status.
    Mr. La Force. The response to those audit findings was one 
component, part of a number of findings that we have made both 
through audit reviews and program reviews. Yes, we found them 
in toto to be inadequate.
    Ms. Norton. So your testimony here today is that you have 
found D.C., you have designated D.C. in high-risk status 
because you had no alternative; D.C. was uncooperative and 
unresponsive, and therefore you felt you had to move to this 
most serious category.
    Mr. La Force. We are designating D.C., DCPS as high-risk 
because we are deeply concerned that the system continue the 
progress it has begun. As we have discussed, different members 
of the panel have testified today, I think we all share a 
common goal of making sure that DCPS is performing at its best 
for the benefit of its students. Today we have concerns that 
the District has not addressed all of the challenges that face 
it. We also have concerns about its ability to address all of 
those challenges in the future.
    Ms. Norton. What is your concern about its ability to 
address those challenges in the future on this superintendent's 
watch?
    Mr. La Force. We have a great deal of respect for Dr. Janey 
for his experience and for the job that he is doing in the 
District today. However----
    Ms. Norton. You have concerns about the future. What are 
your concerns about the future so he knows what he has to do?
    Mr. La Force. In the simplest terms possible, we believe 
that the District is facing more challenges, more problems than 
it has problem solvers. Chairman Davis asked a very interesting 
question in his comments about the capability of D.C. as an SEA 
and its role as an SEA, and we think that is a very important 
part of this, that the SEA component of the District buildup 
its capability. We have concerns about the District's ability 
to manage its Federal grants. We have concerns about the 
District's ability to continue to make progress in an 
environment of ongoing budget challenges and in an environment 
where student achievement expectation will continue to rise 
year after year.
    Ms. Norton. What these three unfortunate jurisdictions have 
in common, of course, is that they are treated like a State, 
and they do not have the mechanisms or the resources of a 
State. It apparently has not occurred to the Department of 
Education that was at the root of the problem, that if you 
wanted to help the District, the problem was structural, and 
therefore one probably was not dealing only with the District; 
that one was probably dealing with the only superstructure that 
the District has, and that is the D.C. government.
    Dr. Janey, who designated--D.C. has not always had this 
separate designation in the form we see it today of a State 
education and city, and yet I think that was actually 
memorialized with separate personnel and all in a way that I do 
not recall having been the case in the past. Is that true?
    Dr. Janey. I am not familiar with the actual date at which 
the designation occurred, meaning State and local. I am just 
not familiar.
    Ms. Norton. Mr. Willoughby, are you aware what I am talking 
about? I mean, D.C. handled all of these together.
    Mr. Willoughby. Exactly, I am not sure of the date either. 
We do not have it.
    Ms. Norton. Now I know that certain programs which Mr. 
Johnson has attributed to the school system are handled 
essentially out of the State education department. For example, 
our TAG program, our program for television access, Dr. Janey 
does not have anything to do with that. They might be Federal 
funds. I do not think he has anything to do with these voucher 
funds.
    Mr. Willoughby. The only thing I can add is that I thought 
it was somehow connected with Federal funding for the school 
system, and it was required that this State entity be 
established or created, but I cannot give you a definite 
timeframe or date.
    Ms. Norton. So what we have again if one were, if the 
Department of Education stood back and said, would you--how 
come we are seeing these problems in these three areas that 
have no State? And yet I have heard nothing from Mr. Hudson or 
Mr. La Force, I'm sorry, or Mr. Johnson about structural 
changes which clearly have raised themselves in a systemic way 
in these three Stateless jurisdictions. Why not? Why are you 
not helping with the structural matter? Do you believe, for 
example, that grants should be handled by the D.C. government, 
some other part of the D.C. government, or have you any 
experience--Dr. Janey talked about best practices--from the 
States other than you are not managing your money well? Your 
scores in your first year, you have not brought up. Shame on 
you. Other than that, kind of across-the-board criticism, have 
you done the analytical work with these three jurisdictions who 
share in common the absence of a State apparatus which surely 
sorts out much of this for my good colleague Bob from 
Baltimore? If they are not--this is a jurisdiction in much 
worse shape in some ways than we are, but they have a State 
superstructure. They have State funds coming from special 
education and the rest that they do not have. They have 
something going for them, and it sounds to me, knowing nothing 
but having some analytical ability, as if I put two and two 
together and I say the Virgin Islands, Guam, Samoa and the 
District of Columbia, what comes out is no State 
superstructure. So if we have a role to play, Department of 
Education, it is helping these jurisdictions without a State, 
these State school districts without a State to relate to, a 
government, the government that they relate to as a State in 
our case, it would be the District of Columbia government. So I 
have to ask you, have you been in touch with anybody in the 
District of Columbia government?
    Mr. La Force. Ms. Norton, your analysis is correct. There 
is a common feature between the jurisdictions that have been on 
high-risk, and that is that they, in most cases, what we refer 
to as a unitary system where the State and the district are the 
same. It is something that we have identified and in our 
meeting with Dr. Janey and his staff later today. It is on the 
very top of my personal to do list to address that issue with 
the District. As Dr. Johnson referenced in his testimony this 
morning, we believe that issue to be one of the most important 
issues we address together as we go forward. Our recommendation 
to Dr. Janey will be that we begin building a state-type 
organization within his control.
    Ms. Norton. Well, would it be within his control? I am not 
asking that it not be within his control. But that is 
interesting. Is it within the control of the superintendent of 
the city of Baltimore, if we are talking about the State 
apparatus or the State of Maryland? I mean, this is more 
complicated than that, sir, is what I am saying. I do not know 
what this is. It is an interesting intellectual and management 
problem. This superintendent wants to make sure that what he is 
accountable for coming under his jurisdiction. At the same 
time, if you mix these functions so that there is nobody who 
has true oversight, thank goodness for Mr. Willoughby, and he 
has certainly done his job, but essentially, what you have here 
and what seems to me important to recognize is, you do not have 
an objective State agency like the State of Maryland or the 
State of Virginia which will pull the chains of Fairfax County 
or Baltimore and say, you know what, you are not going to get 
this State in trouble so this is what you have to do. D.C. has 
tried to create that, and it does seem to me that if one tries 
to probe, what could possibly be at stake here, that the root 
of the problem may be this oversight problem, the mixture of 
function, the mixture of oversight and the failure, therefore, 
to have some independent arbiter except for the auditor who 
looks like he is over-worked with looking at various parts of 
D.C. public schools that happen to be thrown over the transom 
to him to look at. I say all of this because I told you I 
approach this with a presumption of it is D.C. public schools 
that needs to be fixed, but with real skepticism that somehow 
the public schools of the great cities of the United States, 
which are all finally pulling themselves up by their 
bootstraps, that have had superintendents for longer than a 
year who probably would not have been told, we want to see a 
10-point increase in this and a 20-point increase in that in 
your first year, so I cannot believe therefore that anything is 
at work here except something that is truly distinctive.
    So I am going to have to ask you, because I think the 
superintendent is quite capable of doing what he is doing, and 
I think given the amount of time and the nature of the school 
system, that he is probably going to do that. If you could be 
helpful to us in any way, it seems to me at that meeting should 
not only be, from this meeting, that these ongoing set of 
meetings should not only be Dr. Janey. It should be somebody 
from the city government who would have an interest in this 
State function beyond these State oversight functions we have 
now so that the D.C. government can be informed. The D.C. 
government has to take responsibility for this. You are talking 
about a school system where the CFO does not even report to the 
superintendent. And yet all of this is being laid on his table. 
We have to just aggregate this, not to relieve him of 
responsibility but to have a clearer set of functions so that 
those functions are better understood.
    I would like, Dr. Janey, as I said in my opening remarks, 
that we wondered whether we could get a superintendent. This 
place where people like to come and show their stuff normally. 
But there have been actings and mishaps, and so we thought we 
were in real trouble. So Dr. Janey didn't have to do what the 
average superintendent has to do; all of them are quite 
extraordinary people to take on these tasks. What he had to do 
was not raise the scores, Dr. Janey. His portfolio is awesome, 
and I would like him to lay out, beginning with facilities, 
what is on his plate to fix so that we have an understanding of 
what we mean by reform of the D.C. public schools and we begin 
with your management plan which begins with curriculum that, 
sir, is to be fully implemented beginning next year. How would 
you feel, you are a superintendent, you have had to do your due 
diligence you had to go to your school board, your council, 
some of it has been implemented now. Where is my paper? But 
parts of it in 2005, 2006, implementation is going to start in 
the 2006/2007 school year. And that is of his master education 
plan. And you are telling us here this morning that part of the 
indictment has to do with education issues. Well, thank you 
very much. I guess so. What he had to do was to make sure that 
he had on board his board, his residents. Let me ask him what 
he is about to do.
    You have drawn the master plan the master education plan. 
You have gotten it approved by your board. Implementation, full 
implementation as I understand it starts at 2006/2007 and that 
more changes will come through the next 2 or 3 years. I hope 
that is the way in which he is doing it. Because if he throws 
this at our school system, he will be throwing it on the 
grounds. You would think if he does that, we ought to clap and 
say, well done, and that is it. But I want him to lay out the 
rest of what has to be done by him at the same time.
    Go ahead, Dr. Janey.
    Dr. Janey. We will have to hire over 600 teachers. We will 
reduce the excess space in the school district by 1 million 
square feet by the last week in August. We will hire probably 
up to 20 or so principals. Last year, we had a churn of 44 from 
one year to the next. We will have to address the modernization 
of our buildings. On average, they are above 63 years of age. A 
case study might be Cardoza which was built without a 
gymnasium. Some luminary advanced that architectural plan and 
constructed a building without a gymnasium. Cardoza, among 
other high schools, has the cruel task of making a decision to 
keep their air conditioning on, their lighting on, or turn on 
the computers because of the fragility of the electrical 
system. It is inadequate with respect to the amperage, and it 
is inadequate with respect to the voltage. That has a direct 
impact on teaching and learning and on the opportunity to 
fairly respect all of our students regardless of where they 
have lived, regardless of ethnicity and income. It is a very 
daunting proposition. We can do it. It requires, however, full 
recognition of all of the points of progress we have made.
    We sit in a very unique situation as a State where we have 
one out of every fifth child attending a charter school, and 
those charter schools do not have the same kind of robust 
accountability that we have within our own LEA. That is DCPS.
    And finally, I would just say quickly, giving recognition 
to the independent auditors report dated January 19, 2006, ``In 
our opinion, the schedule presents fairly in all material 
respects the original budget, final budget, actual revenues, 
expenditures and other sources for uses of DCPS which represent 
a portion of the District of Columbia's General Fund and 
Federal and Private Resources Fund for the year ending 
September 30, 2005, in conformity with accounting principles 
generally accepted in the United States of America.''
    I would have, for this record, welcomed and entertained an 
opportunity to prevent this high-risk designation by looking at 
what precise steps we would have had to commit to and 
demonstrate at a level of acceptability so it would conform to 
what we all understand is progressive discipline. On an 
individual basis, we could have done this organizationally 
between whatever point in time and prior to the actual 
designation. But that is after-the-fact conversation.
    Ms. Norton. Indeed, I will make a request that, Mr. Johnson 
and Mr. La Force and the Department of Education, that a more 
definite and perhaps even intermediary step or designation be 
considered by the Department. These schools I indicated in the 
beginning that I do not think you should shy away from exactly 
what you are doing. But how you do things can affect whether or 
not school systems like this are going to be able to get 
anybody to be able to come and do what Dr. Janey, who had a 
very substantial career and apparently has the full confidence 
of some tough cookies in the city. This is an election year. 
And we are not going to be able to do it if one moves to high-
risk. You will get some e-mails, and I hope you all get the 
point and here it comes.
    I would ask the Department to consider that some 
designation short of that might be helpful and some breakdown 
in very specific terms might be helpful, particularly if you 
are talking about school systems which on their face might have 
the same kind of call on resources. If you are in Baltimore and 
you get this kind of trouble, you go to Maryland and say, you 
help us. Or if you are in Maryland and you get this kind of 
word from the Department of Education, you go to Baltimore and 
say, you all come on in. We have experts. We have money. We are 
not going to let this happen to the State.
    I would suggest, given the jurisdictions that seem to have 
been alone and being caught here, that we understand something 
from that is structural, and that is the kind of help that the 
District needs.
    I have a few more questions. I was certainly, I certainly 
didn't understand what kind of technical assistance or 
resources were available here. It is one thing to call in 
people and tell them what they are doing wrong, and it is one 
thing to tell me all the Federal funds we receive, a lot of 
which are not even under Dr. Janey's jurisdiction; it is 
another thing to have a true program for technical assistance 
where you sit down and you do some of the things that Dr. Janey 
has indicated like, here are the best practices and here is 
what we suggest, particularly when you are dealing with a 
school system that does not have State experts who might play 
that role. So I am going to ask that kind of technical 
assistance be provided, too. I want to ask you, Mr. Johnson, 
are you aware of the fact that the District, that the 
District's auditor is placing a permanent site at the D.C. 
public schools, an onsite outside auditor?
    Mr. Johnson. No.
    Mr. Willoughby. No, just to clarify, it is the Inspector 
General's Office, Congresswoman.
    Ms. Norton. I'm sorry. Inspector General's Office.
    Mr. Johnson. No.
    Ms. Norton. You know, the Inspector General is entirely 
independent of the D.C. government and the D.C. public schools? 
The reason I ask that is, if you are going to move to high-risk 
status and what we have is the Inspector General about to be 
onsite permanently, you might want to consider that before 
moving to high-risk status. This is a completely independent, 
tough office that came into existence from Congress initially 
at the time of the control board. It is the kind of thing one 
would want to do before slapping some designation on people 
that might have an effect beyond a bureaucrat.
    Mr. Musso, it is important to clarify your role here. I do 
not think there is any other superintendent that has a CFO who 
reports to the CFO and not the superintendent. And yet it is 
the school system and not the D.C. government or the CFO who 
has gotten this high-risk designation. And they are talking 
about 2002/2003, and much of it is financial, and the only 
years they have looked into with any depth are years before 
this superintendent came. So would you tell us about your 
unique role here and its relationship to the high-risk 
designation?
    Mr. Musso. Certainly. Thank you, Congresswoman. Indeed, you 
bring up a point that not many have talked about today that is 
very important for the record. The findings were based upon 
years past, 2002/2003 and past that. Chairman Davis talked 
about this being an issue of years in the making. And I briefly 
talked about some of the reforms and some of the things that we 
have done. Dr. Janey read a statement from the independent 
auditor for fiscal year 2005. We talked about how we intend to 
end the year with a balanced budget, with $12,000.
    Ms. Norton. I know all of that. I am trying to figure out 
if why they are high-risk for financial matters and for grants 
if in fact any of that comes under your jurisdiction and how 
that is handled?
    Mr. Musso. That is the point I am trying to make. In terms 
of at-risk status, it was based upon findings from years past. 
What has not been done or looked at effectively in my 
estimation is what we have been doing forward and those things 
that I have just talked about. All the reforms that we have 
made, and we have talked about items that have occurred under 
Dr. Janey's watch, that have not occurred under Dr. Janey's 
watch; well, the reforms we have been talking about, the 
advances made, the fiscal responsibility, the internal controls 
that are in place from my office, those things have occurred on 
our watch. We are performing due diligence intelligence, and we 
have completed many----
    Ms. Norton. Tell me about your meetings. You must have had 
meetings therefore with these gentlemen after they pulled back, 
after the surprise.
    Mr. Musso. We did.
    Ms. Norton. What occurred between you and them with respect 
to 2002/2003?
    Mr. Musso. Our exit meetings were actually very positive in 
nature. And when the exit occurred, it was our belief that 
there was no fiscal reason for issuing a letter of high-risk 
status. All the things that they looked at had been rectified.
    Ms. Norton. What was your response to that, either Mr. 
Johnson or Mr. La Force? He says he does not understand it, if 
financial matters are included. I am trying to get to the 
bottom of this, gentlemen.
    Mr. La Force. The matters related to years 2002 and 2003 
are certainly part of our consideration, but they are not 
everything.
    Ms. Norton. So you have in fact done your own internal 
audits for the years following 2002 and 2003 and the years 
preceding them?
    Mr. La Force. Beginning in late February of this year and 
continuing until roughly late March, we conducted what we call 
program monitoring reviews, which is the Department's review 
procedure for however States are implementing programs. Those 
program reviews included a review of Title I----
    Ms. Norton. Now, just a second, that is important. I asked 
you to respond to the financial matter, and you heard Mr. Musso 
say that, with respect to financial matters, he does not 
believe that the high-risk status should obtain. And we can go 
on to IDEA, and I am pleased to do that. But I would like a 
response to what he just said, which was that those financial 
matters do not warrant high-risk, both going forward and what 
they have done and with respect to those years.
    Mr. La Force. Mr. Musso is rightly proud of the progress 
that his office has made at the District, and we congratulate 
him on that progress as we have congratulated Dr. Janey on his 
progress, but our judgments differ about where they are today.
    Ms. Norton. That is pretty vague, sir.
    Mr. La Force. I would be happy to continue if you would 
like.
    Ms. Norton. Mr. Musso--I mean he has been very specific 
about why he thinks this.
    Mr. Musso. There are several things I would like to say, 
too. There is a difference between fiscal accountability and 
fiscal accounting. The fiscal accounting is a piece the CFO 
talks about. The fiscal accountability is the part that the SEO 
and everyone has been talking about in terms of the grants 
management, the allocation of funds to subgrantees, those types 
of things. So there is clear distinction between the two.
    The other piece is, once again, I will go back to the 
independent auditor. I mean, the proof is in the pudding. Look 
what we have done in 2005. I mean, if we continue to look at 
the past, we're never going to move forward. The future is 
where we are at. The future is where the children are at. We 
have made substantial demonstrable progress, such that an 
independent auditor has said that, within the financial 
statements. We go several years back; we've tried to correct 
those deficiencies and have been successful in doing that.
    The other thing that I would like to add for the record is 
very clearly I remember, because I have the document back on my 
desk, our reply for the fiscal portion of the Department's 
issues was dated November 15th. Dr. Janey and I collaborated on 
that, so I can say and I need to say for the record that, by 
virtue of he or I, we are not fiscally irresponsible in getting 
that out. Why they didn't receive it, we can't speak to.
    Ms. Norton. Let me lay this to rest by saying the 
following: When you have a school system that has some truly 
unique issues, and the distinction you make between accounting 
and the accountability that goes into your coffer and the rest 
is very much worth noting. But when you have a school system 
that has a CFO and the CFO does not respond to the 
superintendent, you even have a difference therefore with the 
other three territories; and the need for very detailed work 
and structural advice becomes apparent.
    There is no third party here. Congress is a third party. 
You are a third party. But the CFO and the superintendent and 
the D.C. government are all in the same matrix. And Mr. La 
Force, my difficulty is that I have not--you have not 
sufficiently played that third party structural role, and it 
shows in this high-risk designation.
    Mr. Musso.
    Mr. Musso. Yes, the other thing I would like to say, 
Congresswoman, is you talked about my relationship as the 
independent CFO. And the one thing that I want to add is, there 
is a relationship there. My relationship with Dr. Janey and his 
team is such that he always knows what is going on. That would 
be irresponsible to any of us to let happen. So irregardless of 
whether I am independent or I am not, what I do on a daily 
basis won't change in terms of who I have to report to. That is 
just because of who I am.
    Ms. Norton. I understand that but the D.C. government is 
not going to change that. But it ought to inform the Department 
of Education.
    Mr. Johnson or Mr. La Force, the IDEA program, that program 
has been under an at-risk designation apparently for some time 
here in the District of Columbia. Indeed, the IDEA program is 
under a court monitor. And you know, we are in tough shape on 
that because we paid for 100 percent IDEA, no State assistance, 
no assistance from the Federal Government. It is draining money 
from the kinds of things that might well be done in other 
financial and education matters. Why didn't you go program-by-
program if you wanted to do high-risk?
    Mr. Johnson. Actually, that consideration was part of our 
discussion over the several months that we talked about it. We 
thought that doing a high-risk designation for the District 
would be a more comprehensive way to actually help Dr. Janey 
get to the issues that need resolution. We thought that was 
just the most direct way to do it and the best way to do it.
    Ms. Norton. Well, just in this examination, I think back 
and forth, I think we have come to a number of other ways that 
it might have been done with less controversy. You would have 
had me 100 percent on your side, for example. And I am not on 
your side now. It is that a blob like that of high-risk is less 
informative, it seems to me, than going program-by-program when 
you have a school system that does not have a State in the 
first place.
    Mr. Chairman, I am going to end on a positive note and go 
to Cedric Jennings, of course. But I do want to say, you also 
have a school system that has--let me get this word right now--
an IG, inspector general, like the Federal Government. You have 
some tools to work with that it looks like have not been 
plumbed. When you look at his testimony, it is amazing 
testimony.
    I asked you about, why not go high-risk program? When I 
look at what they are doing, they are looking at--and I am not 
going to go through this whole thing, but look at the breadth 
of it, school security, you indicated permanent site. You ought 
to rejoice at that. That should have been included--that is 
almost enough to make somebody not do high-risk.
    They are looking at Title I programs, they are looking at 
management of truancy, they are looking at the management of a 
Federal communications grant. You look at them, they are all 
over the place, a whole lot more than you all. You need to 
collaborate with the way in which the District now does 
business because it would be useful to you.
    Again, I do want--I do want to be clear that what we have 
heard here today is that this superintendent had a charge that 
is, if anything, outrageous. Here is your charge. Master 
education plan, got to have that; master facilities plan, must 
have that. And the financial operations of the school system--
like, I must say, the financial operations of a lot of the rest 
of the government--is one of the great unfixed parts of 
government. So put that on your plate too.
    And who cares that you have only been here 1 year? Just get 
it done. If you don't have it done in the first year after you 
receive a few e-mails and had some discussions, then be 
forewarned, sorry, you are at high risk. You are not doing what 
you should do.
    I think there was another way to do it. I think there were 
interim ways to do it to get more than their attention. I defy 
you to tell me another superintendent that has to recreate a 
school system from the ground up. That is what I expect of this 
superintendent. And I, for one, will accept nothing less.
    Now, Cedric, who overcame what so many students in the 
District of Columbia have overcome, and they have gone on to 
college--and the chairman and I are so proud of the fact that 
there has been a 40 percent increase in college attendance--
Cedric Jennings, I give all the credit to you, to your mother, 
and to whatever teachers in the D.C. public school system 
recognized your talent and encouraged you.
    But I do want to say for the record, because there is 
something else on Dr. Janey's plate that I talked about last 
night at an important meeting that the press would never note, 
but was full of D.C. parents, most of them single mothers. It 
was at the newly renovated Kelly Miller Middle School. It was 
called Kelly Miller Junior High School when I went to Banneker, 
when it was a junior high school. I said I don't want anybody 
from the old Banneker--which is still unrenovated, was old when 
I went there--to even come into Kelly Miller because we are 
going to have school envy now breaking out all over the 
District of Columbia.
    But this was a meeting not about schools; this was a 
meeting about the elephant in the room that is on his plate. 
This was a meeting about marriage and family, and that is what 
is on his plate too.
    In whatever condition we send these children to you, you 
just better do your job. That is what we tell them. That he 
does not have what Eleanor, Portia and Nellie Holmes had, which 
was Coleman and Vela Holmes, and an extended family to boot. He 
doesn't have what all of my classmates had. Nevertheless, you 
had better do it.
    That is why I talk some turkey to my parents. Talked about 
a marriage, talked about the unavailability of marriageable 
Black men because they get siphoned off into the thug economy 
so young and yet what we have to do for our children while we 
are putting the Black family back together. Talk some real 
stuff.
    You know what, the parents, the people of the District of 
Columbia, it is like they are bringing extraordinary pressure 
on you, we are not only ready to hear that tough talk, they 
rose up and clapped about that tough talk about family and 
marriage and putting all that back together again.
    This young man has to have had a momma. That is who I would 
like to meet. Because in order for him to overcome--I know 
Ballou High School, and you talk about Bishop Long, but that 
mother in there was Dr. Janey's predecessor's partner, whatever 
the kids were doing.
    So I have to ask you one final question, Cedric. When you 
talked about educational studies and going on to Harvard and 
then you come back home, of course I was joyful that they 
hadn't snatched you. But it is interesting that you--Dr. Janey 
has not been able to snag you into the D.C. public schools.
    Dr. Janey. Yet.
    Ms. Norton. You said that you work for all the most needy 
children. I do admire you for where you work. We can't get 
folks like you to work with our foster children. But I do have 
to ask you whether you have any intention of becoming a teacher 
in the D.C. public schools.
    Mr. Jennings. I have to answer that, right?
    Ms. Norton. Are you going to take the fifth on me?
    Mr. Jennings. I don't know. I don't know.
    Ms. Norton. Are you prepared--I don't want to put you on 
the spot. Are you prepared to indicate why you went to the 
Department of Children----
    Mr. Jennings. Child and Family Services Agency.
    Ms. Norton. Were you recruited from them? You have a 
Master's in--is it in social work?
    Mr. Jennings. Yes.
    Ms. Norton. What a jewel. In social work.
    I am almost through, Mr. Chairman.
    And education. But you went to social work, where the need 
is even greater. Is that why you went there?
    Mr. Jennings. I enjoy that idea of assisting children from 
a holistic standpoint, because in social work I am able to put 
my hands on the various areas of the children's lives. And for 
me, I have, I guess, the opportunity to be effective in every 
regard in the child's life; that is why I chose social work.
    Ms. Norton. Amen.
    Thank you, Mr. Chairman, for your indulgence.
    Chairman Tom Davis. Thank you. Your 5 minutes has expired.
    I want to thank all of you for this. We want to, as Ms. 
Norton said, put this on a positive note where we all come away 
from this working together. When we convene here next year, 
hopefully we will be showing progress. This is not going to be 
solved overnight, we all understand it, but working together I 
think we can bring us closer to producing more Cedric 
Jenningses.
    Thank you very much. Hearing is adjourned.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Elijah E. Cummings, Hon. 
C.A. Dutch Ruppersberger, and additional information submitted 
for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T7852.042

[GRAPHIC] [TIFF OMITTED] T7852.043

[GRAPHIC] [TIFF OMITTED] T7852.044

[GRAPHIC] [TIFF OMITTED] T7852.045

[GRAPHIC] [TIFF OMITTED] T7852.046

[GRAPHIC] [TIFF OMITTED] T7852.047

[GRAPHIC] [TIFF OMITTED] T7852.048

[GRAPHIC] [TIFF OMITTED] T7852.049

[GRAPHIC] [TIFF OMITTED] T7852.050

                                 <all>

</pre></body></html>
